No. 20-18
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

ARTHUR GREGORY LANGE, Petitioner,
v.
CALIFORNIA, Respondent.
____________________
On Writ of Certiorari to the Court of Appeal of
California, First Appellate District
____________________
Brief Amicus Curiae of
Gun Owners of America, Inc., Gun Owners
Foundation, Gun Owners of California,
DownsizeDC.org, Downsize DC Foundation,
Conservative Legal Defense and Education
Fund, and Restoring Liberty Action Committee
in Support of Petitioner
____________________
WILLIAM J. OLSON*
JEREMIAH L. MORGAN
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record

December 11, 2020

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT
I.

To Adopt a Case-by-Case Approach to Govern
Misdemeanor Pursuit Home Intrusions Would
Be to Adopt No Rule at All . . . . . . . . . . . . . . . . 3
A. Petitioner Urges Adoption of a Case-byCase Approach . . . . . . . . . . . . . . . . . . . . . . . 3
B. Respondent Urges Adoption of a Case-byCase Approach . . . . . . . . . . . . . . . . . . . . . . . 6
C. Both Petitioner and Respondent Ignore a
Third Way . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
D. Both Petitioner and Respondent Ignore
the Property Basis of the Fourth
Amendment . . . . . . . . . . . . . . . . . . . . . . . . . 8

II. The Parties’ Fourth Amendment Historical
Research Provides No Founding Era
Support for Either a Categorical Exception
or Case-by-Case Exceptions . . . . . . . . . . . . . . 10

ii
III. Unintended Consequences Would Follow this
Court’s Sanction for More Home Invasions . . 12
A. Pretextual Traffic Violation Pursuits Will
Be Used to Circumvent the Warrant
Requirement to Enter Homes . . . . . . . . . . 12
B. Misdemeanor Pursuits into Homes Could
Lead to Increased Firearm-Related
Injuries . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Fourth Amendment . . . . . . . . . . . . . . . . . . . 2, passim
STATUTES
Cal. Penal Code § 198.5 . . . . . . . . . . . . . . . . . . . . . 14
CASES
Carpenter v. United States, 138 S. Ct. 2206
(2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Florida v. Jardines, 569 U.S. 1 (2013). . . . . . . . . . . 8
Heien v. North Carolina, 574 U.S. 54 (2014) . 12, 13
Illinois v. McArthur, 531 U.S. 326 (2001) . . . . . . 7, 8
Jackson v. San Francisco, 576 U.S. 1013 (2015). . 13
Katz v. United States, 389 U.S. 347 (1967) . . . . . . 8
Kentucky v. King, 563 U.S. 452 (2011) . . . . . . . . . . 4
United States v. Jones, 565 U.S. 400 (2012) . . . . 8, 9
Whren v. United States, 517 U.S. 806 (1996) . . . . 12
MISCELLANEOUS
H. Titus & W. Olson, “United States v. Jones:
Reviving the Property Foundation of the Fourth
Amendment,” CASE WESTERN RESERVE
UNIVERSITY, J. OF LAW, TECHNOLOGY & THE
INTERNET, vol. 3, no. 2 (Spring 2012) . . . . . . . . 8

INTEREST OF THE AMICI CURIAE1
Gun Owners of America, Inc., Gun Owners of
California, and DownsizeDC.org are nonprofit social
welfare organizations, exempt from federal income tax
under Internal Revenue Code (“IRC”) section 501(c)(4).
Gun Owners Foundation, Downsize DC Foundation,
and Conservative Legal Defense and Education Fund
are nonprofit educational and legal organizations,
exempt from federal income tax under IRC section
501(c)(3). Restoring Liberty Action Committee is an
educational organization. Amici organizations were
established, inter alia, for the purpose of participating
in the public policy process, including conducting
research, and informing and educating the public on
the proper construction of state and federal
constitutions, as well as statutes related to the rights
of citizens, and questions related to human and civil
rights secured by law.
Some of these amici have filed amicus briefs before
this Court in other Fourth Amendment cases,
including:
• United States v. Jones, No. 10-1259, Brief
Amicus Curiae of Gun Owners of America, Inc.
in Support of Neither Party (May 16, 2011)
(Petition Stage);

1

It is hereby certified that counsel for Petitioners and
Respondents have consented to the filing of this brief; that no
counsel for a party authored this brief in whole or in part; and
that no person other than these amici curiae, their members, or
their counsel made a monetary contribution to its preparation or
submission.

2
• United States v. Jones, No. 10-1259, Brief
Amicus Curiae of Gun Owners of America, Inc.
in Support of Respondent (October 3, 2011)
(Merits Stage); and
• Carpenter v. United States, No. 16-402, Brief
Amicus Curiae of U.S. Justice Foundation, et al.
in Support of Petitioner (Aug. 14, 2017).
SUMMARY OF ARGUMENT
Both Petitioner and Respondent oppose the
creation of a categorical rule to allow home invasions
by officers while pursuing fleeing misdemeanor
suspects. And both parties support the creation of a
“case-by-case” rule which would allow for such home
invasions under some circumstances. Neither party
considered a third approach — the adoption of a
categorical rule against home invasions in pursuit of
fleeing misdemeanor suspects. Based on the founding
era research provided by the parties, that third rule
appears to be more consistent with the Framers
understanding of the scope of Fourth Amendment
protection. Also, because the Jones and Jardines reaffirmation of the property basis of the Fourth
Amendment was largely ignored by the parties, these
amici urge that re-briefing be ordered to address those
central concerns, particularly since the scope of the
Fourth Amendment’s protection of the home is the
issue in this case. Should this Court choose either to
sanction the approach taken by the court below, or the
case-by-case approach advocated by the parties, it
would run great risk of increasing pretextual entries

3
into homes and endanger the lives of both homeowners
and law enforcement officers.
ARGUMENT
I.

TO ADOPT A CASE-BY-CASE APPROACH TO
GOVERN MISDEMEANOR PURSUIT HOME
INTRUSIONS WOULD BE TO ADOPT NO
RULE AT ALL.

Petitioner and Respondent ask this Court to take
somewhat different procedural approaches to resolve
this case. The Brief for Petitioner asks this Court to
reverse the judgment of the California Court of Appeal
(Brief for Petitioner (“Pet. Br.”) at 44), while the Brief
for Respondent Supporting Vacatur urges this Court to
vacate the judgment below and remand for further
proceedings (Brief for Respondent Supporting Vacatur
(“Resp. Br.”) at 36).
However, Petitioner and
Respondent both approach the underlying legal issue
and the rule that should be adopted in a highly similar
manner.
A.

Petitioner Urges Adoption of a Case-byCase Approach.

Petitioner opposes the creation of a “categorical
warrant exception for misdemeanor pursuit” to the
Fourth Amendment and urges that the Court apply
“the same case-by-case approach that governs in every
other exigent-circumstances context.” Pet. Br. at 6.
Petitioner then outlines in broad terms the rule it
would have this Court adopt: “Officers may make a

4
warrantless home entry2 if taking the time to seek a
warrant would frustrate a compelling law-enforcement
need — but not otherwise.” Id. at 6. Petitioner
describes how this Court handles Fourth Amendment
cases, and how it should approach this case, by
applying a “balancing test”: “This Court assesses the
reasonableness of a search or seizure by weighing the
severity of the intrusion on citizens’ privacy and
security against the legitimate needs of law
enforcement.” Id. at 8.
Petitioner cites a recent decision of this Court for
its conclusion that the “‘ultimate touchstone’” of a
Fourth Amendment warrantless search is
“reasonableness” (Pet. Br. at 32) (citing Kentucky v.
King, 563 U.S. 452, 459 (2011)).3 Once reasonableness
is identified as the ultimate test of a Fourth
Amendment warrantless search or seizure, it becomes
natural for Petitioner to offer the following “rule” to
guide an officer making a decision as to whether or not
he has the authority to break into a home:
An officer pursuing a suspected misdemeanant
may enter a home without a warrant if — but
only if — he could reasonably conclude that
taking the time to seek a warrant would

2

The term “home entry” is a sanitized term, which in no way
captures the terror of Americans experiencing a “dynamic” police
entry of a home — with or without a warrant.

3

These amici challenge this view as a misunderstanding of the
Fourth Amendment test in Section II, infra.

5
frustrate some compelling law-enforcement
need. [Pet. Br. at 10 (emphasis added).]
However, it does not require close examination to
realize that Petitioner is not really asking this Court
to adopt a genuine rule of law that officers could apply
in the field. Rather, Petitioner is asking the Court to
allow an officer in the field to make a judgment about
what he believes is “reasonable,” taking into account
whether he believes that his need is “compelling.”
This should not be the way in which constitutional
protections are communicated to law enforcement. In
the case of a prosecution, it would be the evaluation by
a judge as to whether these twin tests were met, which
really means that the police officer would be predicting
whether a judge would later believe that he had
reached a “reasonable” conclusion. That is not a rule
of law.
To be sure, Petitioner presents a compelling case
against adoption of a categorical warrant exception.
He points out that there are all types of
misdemeanors, some probably better described as
“infractions,” and many do not involve any exigency.
And there are all types of misdemeanants. A
categorical rule allowing police break-ins takes none of
the facts of a police-citizen encounter into
consideration. In other words, a categorical rule which
would authorize police home break-ins in a variety of
circumstances which would shock the conscience of a
modern judge should not be adopted. These amici
agree.

6
Petitioner does not address whether a “case-bycase” approach would provide a meaningful protection
for a citizen’s home against invasion. The harm is
done at the moment of the break-in, no matter what a
judge may do later. Even if a judge later were to
decide the officer’s action was without justification, the
police interaction, possible arrest, possible charges,
and even a trial could have already occurred. Although
evidence seized unconstitutionally later may be
suppressed, and a prosecution may be dropped or
dismissed, those things typically would occur only
after a lawyer is hired and expenses are incurred.
Moreover, the physical harm to the home is nothing
compared to the terror that is inflicted on the
occupants and the risk that such home invasions
present to occupants and police. See Section III, infra.
An officer has almost no consequence from
conducting an unconstitutional home invasion, but he
could be criticized for not taking action. Unlike at
common law, where an officer invading a house was a
trespasser who could be sued, the judicially created
doctrine of qualified immunity protects the officer from
consequences of a wrong decision unless the precise
legal issue had already been ruled upon by a court in
that jurisdiction.
B.

Respondent Urges Adoption of a Caseby-Case Approach.

Respondent recommends the same approach as
Petitioner. opposing an extension of the felony pursuit
Fourth Amendment categorical exception to
misdemeanors. Resp. Br. at 1. Like Petitioner,

7
Respondent cites a case from this Court for the
proposition that the “central requirement” of the
Fourth Amendment “is one of reasonableness.” Illinois
v. McArthur, 531 U.S. 326, 330 (2001). Resp. Br. at 12.
From that position, it seeks to preserve the power of
the State of California to have its officers break into
homes in pursuit of misdemeanor suspects in certain
situations:
No doubt, there are cases in which it is
important — even imperative — for police to
pursue a fleeing misdemeanor suspect into a
home. In most of those cases, however, officers
will be able to identify a case-specific exigency
justifying a warrantless entry. [Id. at 1.]
Like Petitioner, Respondent would have these searches
be based on “facts and circumstances” or the “totality
of the circumstances.” Resp. Br. at 5. And, like
Petitioner, Respondent focuses on “privacy”
considerations, but not “property” considerations.
C.

Both Petitioner and Respondent Ignore
a Third Way.

Both Petitioner and Respondent view the choice for
this Court as a binary between: (i) a categorical rule
which allows police to break and enter a home
whenever they are in pursuit of a person thought to
have committed either a minor infraction or a
misdemeanor; or (ii) a “case-by-case” approach by
which the legality of the home invasion later would be
deemed “reasonable” by a modern judge, largely based
on his own notions of fairness. There is a third choice

8
that this Court could make — to design a categorical
rule which prohibits all home invasions, except for
such narrow exceptions as faithfully track the text,
history, and tradition of the Fourth Amendment. This
is the approach urged by these amici, as described in
Section II, infra.
D.

Both Petitioner and Respondent Ignore
the Property Basis of the Fourth
Amendment.

Since this Court’s decision in Katz v. United
States, 389 U.S. 347 (1967), most litigants have
focused narrowly on the “reasonable expectation of
privacy” test identified by Justice Stewart in
addressing Fourth Amendment issues of all sorts.
However, in United States v. Jones, 565 U.S. 400
(2012), this Court reassessed its Fourth Amendment
jurisprudence and restored the primacy of the property
principle in determining Fourth Amendment cases.4
In Florida v. Jardines, 569 U.S. 1 (2013), this Court
relied on the Jones decision and again applied property
principles — not privacy interests — to decide the
Fourth Amendment issue. The Illinois v. McArthur
case cited by Respondent pre-dates Jones and
Jardines.
The Jones and Jardines cases were virtually
ignored by the parties. Petitioner ignored Jardines,
4

See H. Titus & W. Olson, “United States v. Jones: Reviving the
Property Foundation of the Fourth Amendment,” CASE WESTERN
RESERVE UNIVERSITY, J. OF LAW, TECHNOLOGY & THE INTERNET,
vol. 3, no. 2 (Spring 2012).

9
but once cited Jones using a quotation not about
property, but privacy. Pet. Br. at 26. Respondent
ignored Jones, but once cited Jardines about the
special protection of a home. Resp. Br. at 21. The
property principles revived and applied in Jones and
Jardines have great relevance to resolving the pending
case. Justice Gorsuch’s dissent in Carpenter v. United
States, 138 S. Ct. 2206 (2018), involving cell phone
data was designed to encourage litigants to focus on
the property principles and not be limited to arguing
atextual notions such as “reasonable expectations of
privacy,” which Justice Scalia believed had failed to
recognize that the Fourth Amendment expressly
protects property interests.
The text of the Fourth Amendment reflects its
close connection to property, since otherwise it
would have referred simply to “the right of the
people to be secure against unreasonable
searches and seizures”; the phrase “in their
persons, houses, papers, and effects” would
have been superfluous. [Jones at 405.]
Certainly when a person’s protected interest in his
home is threatened, the property issue should be
addressed first, not privacy. Because that issue was
largely ignored by the parties, these amici suggest that
this Court consider requesting briefing of the property
principles which bear upon the Court’s resolution of
this case.

10
II. THE PARTIES’ FOURTH AMENDMENT
HISTORICAL RESEARCH PROVIDES NO
FOUNDING ERA SUPPORT FOR EITHER A
CATEGORICAL EXCEPTION OR CASE-BYCASE EXCEPTIONS.
Petitioner correctly recognized that in determining
the scope of the Fourth Amendments, this Court would
look to available guidance from the founding era. Pet.
Br. at 10. Petitioner summarized its historical
research as follows: “although the common-law
authorities differed somewhat on exactly what
circumstances could authorize a warrantless entry,
they agreed on the dispositive issue here: Mere
pursuit of a nonviolent misdemeanant was not one of
them.” Pet. Br. at 8, 27-28. Petitioner provided a
number of helpful authorities, including Laura K.
Donohue, “The Original Fourth Amendment,” 83 U.
CHI. L. REV. 1181 (2016), and her observation that at
common law, nonconsensual entry into the home by
the government “was a trespass.” Pet. Br. at 27.
Petitioner explained that only in cases of “absolute
necessity” could an intrusion into a home be permitted.
Id. at 28. Petitioner cited Lord Coke describing only
one circumstance where pursuit created an exception
to the warrant requirement: “‘[U]pon hue and cry of
one that is slain or wounded, so as he in danger of
death, or robbed, the king[’s] officer that pursueth may
. . . break a house to apprehend the delinquent.”
Edward Coke, The Fourth Part of the Institutes of the
Laws of England 176 (6th ed. 1797).” Pet. Br. at 29.
However, the “hue and cry” exception to the warrant
requirement is distinguishable from pursuit of a
misdemeanor suspect, and the other authorities cited

11
appear to allow no clear founding era support for
officers entering a home without a warrant to pursue
a misdemeanor suspect, either categorically or on a
case-by-case basis. Pet. Br. at 29-30.
Respondent commented on the “hue and cry”
exception as being “somewhat broader” than the
modern hot-pursuit exception in that they apparently
extended to individuals who were suspected for
recently committed offenses but who were not actively
fleeing an arrest attempt. Resp. Br. at 20. However,
it is not at all clear that the “hue and cry” rule would
apply without a “hue and cry.” For these reasons, the
“hue and cry” rule, while historically supported, likely
provides no support for a fact-based, case-by-case rule
for fleeing misdemeanant home invasions which is
urged by both Petitioner and Respondent.
Based on a review of founding era authorities cited
by the parties, a different type of categorical rule
should be considered by this Court — that is, without
a warrant, officers may not break and enter the home
of a misdemeanor suspect, even in hot pursuit. That
rule would not disturb the historic “hue and cry”
exception for a warrantless break-in, but the
justification for that home invasion would be quite
different from a fleeing misdemeanant.
The
circumstance of an officer hearing the “hue and cry of
one who “is slain or wounded, so as he [is] in danger of
death...” is distinguishable. Should this Court allow
re-briefing on the property aspects of the Fourth
Amendment that were not well developed by either
litigant, additional scholarship could be brought to

12
bear on the applicability of the “hue and cry” rule to
the present case.
III.

UNINTENDED CONSEQUENCES WOULD
FOLLOW THIS COURT’S SANCTION FOR
MORE HOME INVASIONS.

California recognizes the danger of categorical
approving misdemeanor-pursuit-into-home for the
arsenal of law enforcement officers, as it has asked
this Court to vacate the opinion of the court below. It
can be anticipated that if this Court affirms the
decision below, not only would it be an endorsement of
Fourth Amendment violations, but it will also permit
law enforcement in more states and localities to use
this weapon in ways that will result in negative
consequences for our citizens and for law enforcement
in general.
A.

Pretextual Traffic Violation Pursuits
Will Be Used to Circumvent the Warrant
Requirement to Enter Homes.

In Whren v. United States, 517 U.S. 806 (1996),
this Court rejected a challenge to law enforcement
engaging in searches and seizures in the course of a
traffic stop for a minor traffic offense, when law
enforcement is conducting the stop as a pretext to look
for more serious offenses, such as for drug interdiction.
Specifically, as long as an officer has an objectively
valid reason for the stop — a light bulb out, crossing a
traffic lane marking, etc. — that it is irrelevant what
the subjective belief or intent of the officer is.

13
Even when the officer is objectively reasonable, but
nonetheless incorrect, about whether a motorist has
violated a law, this Court has held it can still result in
a valid traffic stop that can be used to justify a further
search for contraband. In Heien v. North Carolina,
574 U.S. 54 (2014), the officer began following the
driver because she “looked ‘very stiff and nervous.’” Id.
at 57. The officer ultimately pulled the car over
because it had a brake light that failed to illuminate,
but this apparently did not violate North Carolina’s
laws at that time. The officer found what he hoped for
during his pretextual traffic stop when a search turned
up cocaine. Id. at 58.
Amici are rightly concerned that if this Court now
adopts the lower court’s categorical approach, or the
case-by-case approach urged by the parties, law
enforcement on a broader basis will begin to engage in
pretextual traffic “pursuits” to gain entry into homes
to search for contraband without the need for a
warrant as required by the Fourth Amendment. Such
a pretext can be based on impermissible racial
profiling or even based on known lawful owners of
firearms to catch them in a technical firearms
violation in a jurisdiction that disfavors firearms
ownership, such as San Francisco’s onerous storage
requirements for firearms in the home.5

5

See Jackson v. San Francisco, 576 U.S. 1013 (2015) (cert.
denied).

14
B.

Misdemeanor Pursuits into Homes Could
Lead to Increased Firearm-Related
Injuries.

Many states have some form of castle doctrine,
permitting an individual in his dwelling to defend it,
without the requirement to retreat, from a home
invader when in fear of life or bodily injury.
California, for example, enacted the “Home Protection
Bill of Rights” in 1984, which permits a person to use
deadly force to protect his or her household under
certain circumstances. See Cal. Penal Code § 198.5.
Misdemeanor or traffic pursuits used to justify
entering homes without a warrant very predictably
could lead to homeowners defending their homes with
force. In this case, the evidence demonstrated that
Lange was not aware that the officer had turned his
lights on or that he was being “persued.” See Pet. Br.
at 3. This case could have turned out quite differently
if a person being pursued (or someone else already in
the home) had ready access to a firearm and defended
the home before he became aware that the “intruder”
was a police officer.

15
CONCLUSION
For the forgoing reasons, the decision of the
California Court of Appeal should be reversed.
Respectfully submitted,
WILLIAM J. OLSON*
JEREMIAH L. MORGAN
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record

December 11, 2020

